         DEPARTMENT OF DEFENSE
          OFFICE OF INSPECTOR
               GENERAL

         FY 2014 AUDIT PLAN




                            OCTOBER 2013
OFFICE OF THE DEPUTY INSPECTOR GENERAL
                           FOR AUDITING
The Inspector General Act of 1978, as amended, states that the Department of
Defense Inspector General is responsible for conducting audits,
investigations, and inspections, and for recommending policies and
procedures to promote economic, efficient, and effective use of agency
resources and programs that prevent fraud, waste, abuse, and
mismanagement. The IG Act also requires the Inspector General to keep the
Department and Congress fully and currently informed about problems and
deficiencies in the Department’s operations and the need for corrective
action. The Office of the Deputy Inspector General for Auditing is one of
six components within the Office of the Inspector General that performs
oversight of the Department.

The Office of the Deputy Inspector General for Auditing conducts audits on
all facets of DoD operations. The work results in recommendations for
reducing costs; eliminating fraud, waste, and abuse of authority; improving
performance; strengthening internal controls; and achieving compliance with
laws, regulations, and policy.


                                 Mission
Provide independent, relevant, and timely audits that promote economy,
efficiency, and effectiveness with sound, actionable recommendations that,
when effectively implemented, improve the Department’s programs,
operations, and stewardship of its resources.

                                  Vision
To be the premier audit organization in DoD that promotes excellence and
provides leadership throughout the Department and makes a difference in the
lives of the warfighter.

                              Core Values
            • Integrity • Efficiency • Accountability • Excellence
             Office of the Deputy Inspector General for Auditing
                            FY 2014 Audit Plan



The Office of the Deputy Inspector General for Auditing provides independent and objective
audit services to promote continuous improvement, management, and accountability of DoD
operations, programs, and resources to support DoD in its defense of U.S. national interests.
The FY 2014 Audit Plan identifies our ongoing and planned oversight of DoD organizations,
programs, and activities, and our functions as an integral part of the DoD management system.

To develop our FY 2014 Audit Plan, we evaluated DoD’s strategic vision as outlined in the
defense strategic guidance and the FY 2014 DoD budget; executive-branch priorities; statutory
requirements; previously identified IG management challenges; Government Accountability
Office high-risk areas; and internal risk assessments. Additionally, we asked DoD civilian
leaders, military commanders, and congressional representatives to identify current or emerging
areas requiring our oversight or attention.

Accordingly, for FY 2014, our primary oversight is focused on the following risk areas: major
defense acquisition programs; contract management; procurement and use of parts; financial
management and the Secretary’s auditability goals; business systems modernization efforts; cyber
security; drawdown efforts in Afghanistan; health care; and joint warfighting and readiness. In
prioritizing our oversight to address these risk areas, we designed the planned audits to improve
the safety and welfare of Service members and their families, support the Department’s Overseas
Contingency Operations, improve operations and financial reporting, identify improvements in
ongoing efficiency efforts, and identify new efficiencies.

We will continue to adjust our planned audits and priorities throughout FY 2014 to respond to
new management requests, congressional requests, Defense Hotline allegations, and other
out-of-cycle requirements. As in previous years, we continue to coordinate our planned projects
with other DoD audit organizations through joint planning groups and other coordination
efforts. Updates to this plan are available by contacting the Corporate Planning Branch at (703)
604-9142.




                                       Daniel R. Blair
                                   Deputy Inspector General
                                        for Auditing
Table of Contents
  FY 2014 AUDIT PLAN ............................................................. i
  RISKS ..................................................................................... i
  ACQUISITION MANAGEMENT ................................................. 1
  CONTRACT MANAGEMENT .................................................... 3
  PARTS UTILIZATION AND PROCUREMENT ......................... 7
  FINANCIAL MANAGEMENT ............................................... 9
    Audit Readiness ........................................................................................ 11
    Financial Statements ................................................................................ 13
    Payments .................................................................................................. 17

  HEALTH CARE ............................................................... 19
  CYBER SECURITY ........................................................... 20
  JOINT WARFIGHTING AND READINESS ............................ 21
  APPENDIX A. FY 2014 PLANNED AUDITS BY SOURCE ........ 23
  APPENDIX B. FY 2014 PLANNED AUDITS BY RISK AREA .... 24
  APPENDIX C. FY 2014 PLANNED AUDIT COVERAGE BY
  DOD STRATEGIC GOALS AND GAO HIGH RISK AREAS ..... 25
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                           FY 2014 Audit Plan
The Deputy Inspector General for Auditing prioritizes oversight efforts to ensure the projects included in the
FY 2014 Audit Plan are timely, relevant, and responsive to the dynamic environment within the Department.
This plan is intended to address significant risks identified in the Department, our statutory mandates, and
congressional and DoD leadership concerns. In determining specific oversight projects to be performed in
the upcoming fiscal year, we balanced the needs and requests of both the Department and Congress.
Appendix A provides an illustrative overview of our planned audits by source.

Our planning process included conducting outreach with congressional representatives and Department
leadership. We met with various senior officials responsible for the significant operations and programs in
DoD to include financial management, acquisition, procurement, health care, cyber security, and military
operations. We reviewed DoD strategic documents such as the 2010 Quadrennial Defense Review, 2012
Defense Strategic Guidance, 1 and the DoD FY 2014 Budget. We also reviewed testimony presented by DoD
leadership, IG-identified management and program challenges, Government Accountability Office–identified
high-risk areas, other organizations’ oversight reporting, and information gathered during audit and
investigative efforts. This information helped us identify and plan oversight of the existing systemic
challenges and challenges the Department will most likely face in the future.

We assessed risk areas identified through our and GAO’s oversight and developed audits to address them and
make recommendations that, when implemented, will improve DoD operations and help reduce risks
associated with the scope of the audit. Specifically, we focused oversight in areas most likely to achieve
efficiencies—improvements in ongoing efforts and new efficiencies DoD could implement. Additionally, the
planned audits will increase the effectiveness of programs and operations; detect and prevent fraud, waste, and
abuse; ensure compliance with laws; assist DoD in achieving financial statement audit readiness; improve
security; and ensure the safety and needs of the Service members and their families.

RISKS
The following is a brief description of the risk areas that our FY 2014 audit plan addresses. Appendices B and
C provide an overview of the FY 2013 DoD IG planned audits by IG Management Challenge Area, DoD
Strategic Goals, and GAO high-risk areas.

Acquisition Management
The Department remains challenged in its management of major defense acquisition programs. Although the
performance of no two acquisition programs is the same, and a good number of them operate within cost and
schedule constraints, there are too many programs with significant cost and schedule growth. Our audits have
identified programs that did not complete required testing, identify the correct procurement quantity, or
properly define capability requirements. As budgets come under increasing scrutiny with the current fiscal
constraints, the Department will be challenged to evaluate the usefulness of all programs. The Department’s
FY 2014 Annual Performance Plan goals identified the Department’s commitment to containing weapon


1
    Sustaining U.S. Global Leadership: Priorities for 21st Century Defense, January 2012




                                                            i
Deputy Inspector General for Auditing FY 2014 Audit Plan

system acquisition program cycle time and cost by assessing the root causes of weapon system acquisition
outcomes and monitoring the effectiveness of its acquisition policies.

Previous DoD IG oversight has identified programs that did not complete required testing, identify the
correct procurement quantity, or properly define capability requirements. We will continue to make
oversight of DoD major weapon acquisitions a priority. We will focus on the Department’s efforts to
improve acquisition by focusing oversight on procurement quantities, effectiveness in preparing the program
for the next major milestone decision, adequacy of testing and evaluation, and the meeting of user needs.

Contract Management
The Department continues to struggle to consistently award, administer, and provide effective oversight of its
contracting efforts. The Department’s continuing contracting deficiencies include obtaining adequate
competition in contracts, adequately defining contract requirements, overseeing contract performance,
obtaining fair and reasonable prices, and maintaining contract documentation for contract payments.

The Department relies heavily on contractors to provide acquisition management and contract support
functions, which often include acquisition planning, requirement determinations, contract award,
performance review, bid analysis, cost assessment, and contract monitoring functions. The Department’s
increased use of contractors as acquisition support highlights DoD’s shortcomings. Service contracts
constitute more than 50 percent of the Department’s contract spending.

The Department has issued policy, procedures, and guidance addressing current contracting challenges. The
Department began the Better Buying Power effort in 2010 and continued with the second phase of the
initiative, BBP 2.0, in April 2013. BBP 2.0 has seven areas of focus, and three of them help the Department
to address contract-management challenges: promoting effective competition, improving tradecraft in
acquisition of services, and incentivizing productivity and innovation in industry and Government. Although
efforts like BBP 2.0 are good steps to improving the Department’s contracting efforts, there are still
improvements that need to be implemented. DoD IG and GAO audits routinely identify the same recurring
deficiencies and weaknesses in the Department’s contracting efforts.

Our planned oversight this year will concentrate on award and administration of task orders, multiple award
contracts, contractor past performance reporting, and contracts to 8(a) Alaska Native Corporation.

Parts Utilization and Procurement
DoD IG is focused on the Department’s efforts to effectively use parts currently in inventory and then, when
necessary, procure parts at fair and reasonable prices. Past DoD IG audits have identified weaknesses and
ineffective management of parts in inventory. Additionally, when parts are needed, DoD has struggled to
procure them at fair and reasonable prices. DoD IG will continue to provide oversight of the Department’s
efforts to effectively use parts in inventory and its efforts to obtain parts at fair and reasonable prices.

DoD begun partnering with contractors at the depot level for increased equipment readiness. Through these
partnerships, DoD aims to achieve its mission by addressing urgent warfighter needs while obtaining best
value. However, past DoD IG audits have identified significant excess inventory that should be used before
procuring the same items from private contractors. BRAC 2005 required the transfer of consumable items
from the Services to the Defense Logistics Agency. We found that once the Services transferred the




                                                      ii
Deputy Inspector General for Auditing FY 2014 Audit Plan

management of these items to the Defense Logistics Agency, the Services did not transfer the requirements,
leading to significant amounts of unused inventory.

The acquisition of parts at fair and reasonable prices is a highly visible problem for DoD. Over the last 20
years, parts prices have increased significantly and often at unreasonable rates. The use of price analysis and
other streamlined acquisition methods to determine fair and reasonable prices are a contributing factor for
spare part price increases. Furthermore, the vagueness of the commercial item definition, which allows
Defense contractors to claim that any part is commercial, resulted in DoD’s inability to obtain cost or pricing
data to support significant price increases, because commercial items are exempt from this requirement. DoD
contracting officers also contribute to higher part prices by failing to purchase economic order quantities, use
commercial services when buying commercial items, or obtain sufficient information to determine price
reasonableness. These pricing issues are magnified when DoD procures parts in a sole source environment.
The payment for overpriced parts is compound by ineffective utilization of parts already in supply.

Financial Management
The Department’s financial management challenges impair its ability to provide reliable, timely, and useful
financial and managerial data to support operating, budgeting, and policy decisions. Gaps in the financial
framework harm the accuracy, reliability, and timeliness of budgetary and accounting data and financial
reporting, reducing the effectiveness of decisions by leaders at all levels. Keys to solving the Department’s
financial management problems are the production of auditable financial statements and receiving unqualified
opinions on them. Achieving auditable financial statements is a longstanding and daunting task.
Additionally, pervasive material internal control weaknesses impact the accuracy, reliability and timeliness of
budgetary and accounting data and financial reporting that is used by key decision makers and Congress.

In the FY 2012 audit opinion on DoD’s consolidated financial statements, we reported the same 13 material
internal control weaknesses as in the previous year. These pervasive and longstanding financial management
challenges impede the Department’s ability to obtain an unqualified opinion on its financial statements and
create an environment where DoD is more susceptible to making improper payments and impair the
Department’s ability to identify fraud, waste, and abuse.

Although the Department is far from reaching an unqualified opinion on its financial statements, it has made
progress. DoD senior leadership has placed an increased emphasis on achieving this goal. The Department
continues to make progress toward meeting the 2014 audit readiness goal of the Statement of Budgetary
Resources; however, it is still uncertain whether the Department will meet the 2014 goal.

To assist in achieving audit readiness, the Department is focused on the successful development and
deployment of enterprise resource planning (ERP) systems that process and provide financial data critical to
business operations, and are a key component of the Department’s strategy to become auditable. Timely and
effective implementation of ERP systems is critical for the Department to achieve its financial-improvement
and audit-readiness goals. However, not all ERPs will be deployed by the 2014 and 2017 readiness deadlines.
Reliance on legacy systems, along with schedule delays and poorly developed, poorly implemented ERPs, will
diminish the savings expected from transforming operations through business-system modernization. Our
prior audits of ERP systems revealed that DoD is facing serious challenges in implementing these systems.
These audit reports have called into question whether the Department will meet its internal and external
auditability milestones if the ERP systems do not operate as intended. Additionally, recent audits continue to
find that system program managers have not configured systems to report U.S. Government Standard



                                                      iii
Deputy Inspector General for Auditing FY 2014 Audit Plan

General Ledger financial data using the DoD Standard Financial Information Structure. Other audits have
found that DoD has not sufficiently reengineered DoD business enterprise architecture processes nor
incorporated the functionality in ERP systems.

Improper payments, a longstanding problem in the Department, are often the result of unreliable data and/or
a lack of adequate internal controls, which increases the likelihood of fraud. Our oversight has found the
Department cannot always support payments of award or incentive fees, cannot support the certification of
invoices for services, and cannot ensure that services are performed, leaving the Department vulnerable to
increased fraud, waste, and abuse. Our audits continue to find that without proper oversight, the
Department cannot be certain that contractors are performing in accordance with contract requirements,
cannot support payments of award or incentive fees, cannot support the certification of invoices for services
performed, and cannot ensure that services are performed, leaving the Department vulnerable to increased
fraud, waste, and abuse.

The DoD IG will continue to provide oversight of DoD financial improvement and audit readiness efforts, to
include audits required by the Chief Financial Officers Act. Audits will focus on financial management; the
Department’s management and development of the ERP systems; DoD financial improvement and audit
readiness efforts; assessing the auditability of military equipment and other assets; contractor payments;
medical payments; and efforts to reduce and eliminate improper payments.

Health Care
The Military Health System must provide quality care for 9.6 million beneficiaries, within fiscal constraints
and while facing increased user demand, legislative imperatives, and inflation. These factors make cost
control difficult in the public and private sectors. Over the last decade, health-care costs have grown
substantially, and Military Health System costs have been no exception. The DoD budget for health-care
costs was $51 billion in FY 2013, an increase of 74 percent since FY 2005. The MHS costs have more than
doubled, from $19 billion in FY 2001 to the Department’s request of $49.4 billion for FY 2014. With the
increased duration and frequency of deployments, the Military Health system challenge is magnified. We will
focus oversight on the controls to prevent overpayments, efforts to improve awareness of potential health
conditions, and electronic patient health records.

Cyber Security
DoD must defend its information and information systems against increasing threats. As identified in the
Department’s strategy for operating in cyberspace, the continuing growth of networked systems, devices, and
platforms means cyberspace is an integral part of DoD’ capabilities. Cyber security will, for the foreseeable
future, continue to be a leading challenge for DoD, with buildings and structures at more than 5,000
different locations. Every day, hackers infiltrate key Government and business computer networks.
Government estimates indicate American companies are losing $250 billion a year in intellectual property
through network intrusions.

According to the Defense Science Board Task Force Report “Resilient Military Systems and the Advanced
Cyber Threat” (Task Force Report), January 2013, U.S. military forces are critically dependent on networks
and information systems to execute missions. The forces are highly vulnerable if threats to those networks
and information systems are not mitigated. The DoD Chief Information Officer has stated, “There will
never be a time that we can assume a ‘comfort’ posture.” It is imperative that DoD leadership challenge its




                                                     iv
Deputy Inspector General for Auditing FY 2014 Audit Plan

personnel to be ever vigilant and to continuously monitor and protect DoD networks and information
systems.

In the current fiscal environment, DoD has difficultly filling the many cyber positions it needs to operate,
defend, and protect its networks. In January 2013, it was reported that DoD planned to expand its cyber
workforce five-fold, to transition from a mainly defensive force to one capable of a wide range of offensive
operations.

We will focus our cyber security audits on information security and assurance, operations and contingency
planning, information technology acquisitions, cyber workforce, and vulnerability management and emerging
capabilities, such as cloud computing.

Joint Warfighting and Readiness
The drawdown of forces from Afghanistan will challenge the Department to transition from
counterinsurgency operations to full-spectrum operations elsewhere in the world. The retrograde and reset
for equipment will continue to affect the Services over the next several years, as equipment continues to be
returned after exceeding the intended utilization rates. The enhanced focus on the Pacific and Middle East
will also challenge the Department as it reaffirms alliances in the region and looks to establish new ones.
Maintaining readiness and ensuring effective support for the warfighter is essential to the Department. The
confluence of a decreasing budget, a planned drawdown of forces from Afghanistan, the need to reset
equipment and personnel across the Services, a return to full-spectrum training, and an enhanced focus on the
Pacific theater and Africa will continue make joint warfighting and readiness a challenge. This will require
management visibility and vigilance. We will focus oversight on controls over the drawdown of equipment in
Afghanistan, logistics support, management of critical supply items, and DLA supply chain challenges.




                                                       v
Deputy Inspector General for Auditing FY 2014 Audit Plan




           [THIS PAGE INTENTIONALLY LEFT BLANK]




                                vi
Deputy Inspector General for Auditing FY 2014 Audit Plan



                           ACQUISITION MANAGEMENT


ONGOING PROJECTS
  Acquisition of the Army Integrated Air and Missile Defense Program (D2013-D000AE-0136.000)
  Objective: Determine whether the Army is effectively preparing the Integrated Air and Missile Defense
  program for the low-rate initial production phase of the acquisition process.

  Acquisition Practices Used at United States Marine Corps Program Executive Office Land
  Systems: Program Management Office, Medium and Heavy Tactical Vehicles (D2013-D000AE-
  0218.000) Objective: Assess the propriety of allegations made to the Defense Hotline concerning
  acquisition practices at Program Executive Office Land Systems; Program Management Office, Medium
  and Heavy Tactical Vehicles. Specifically, determine whether Command followed proper procedures for
  urgent acquisitions of the Automatic Fire Extinguishing Systems for the Medium Tactical Vehicle
  Replacement. Also assess whether funding for Program Management Office, Medium and Heavy
  Tactical Vehicles is based on well-defined and validated requirements.

  F/A-18E/F Infrared Search and Track Program (D2013-D000CD-0107.000) Objective: Evaluate
  the Naval Air Systems Command acquisition management of the F/A-18E/F infrared search and track
  program. Specifically, determine whether Naval Air Systems Command is effectively managing and
  developing the F/A-18E/F infrared search and track for the low rate initial production.

  XM25 Individual Semi-Automatic Airburst System (D2013-D000CD-0148.000)
  Objective: Determine whether the Project Manager for Soldier Weapons is effectively managing and
  developing the XM25 Individual Semi-Automatic Airburst System for a Milestone C decision.



PLANNED PROJECTS
  Acquisition of Joint Light Tactical Vehicles for the Army and the Marine Corps
  Objective: Determine whether the Joint Light Tactical Vehicles Joint Program Office is effectively
  managing and developing the Joint Light Tactical Vehicles for the low-rate initial production phase of the
  acquisition process.

  Air Force Global Positioning System Ground Control Segment Objective: Evaluate the Global
  Positioning System Ground Control program to determine whether the Air Force is effectively preparing
  the program for its production decision.

  Air Force MQ-9 Unmanned Aircraft System Reaper Objective: Determine whether the Air Force
  justified the need for procuring 197 MQ-9 block 5 aircraft. Also, determine whether the Air Force is
  effectively addressing MQ-9 block 5 integration testing and production risks prior to the full-rate
  production decision. (A series of audits is planned.)




                                                    1
Deputy Inspector General for Auditing FY 2014 Audit Plan
  DoD Health Management System and Integrated Electronic Health Records Objective: Determine
  whether DoD is effectively managing and developing requirements to acquire a DoD Health care system
  and/or interoperable system architecture that will create, maintain, and securely transmit an integrated
  electronic health record between DoD and the Department of Veterans Affairs.

  Global Positioning System–Based Positioning, Navigation, and Timing Service
  Objective: Determine whether the Navy is effectively preparing the Global Positioning System-Based
  Positioning, Navigation, and Timing Service program for low-rate initial production. Specifically,
  determine the Navy’s effectiveness in testing and integrating the system to support procuring the Global
  Positioning System-Based Positioning, Navigation, and Timing Service after the low-rate initial
  production decision review.

  Joint Tactical Radio System Handheld, Manpack, and Small Form Fit Objective: Determine
  whether the Army is effectively managing the Joint Tactical Radio System Handheld, Manpack, and
  Small Rifleman and Manpack Radios. Specifically, review how the Army acquired and tested the
  program to ensure it meets warfighter needs.

  Low-Rate Initial Production in Major Defense Acquisition Programs Objective: Determine whether
  DoD major acquisition programs have effective processes to meet key requirements for low-rate initial
  production.

  Management of Operational Test Waivers for Department of the Navy Systems Objective: Evaluate
  the Department of the Navy’s overall management of waivers from operational test requirements for the
  Department of the Navy’s systems. Specifically, evaluate the process for justifying, reviewing, and
  approving the waiver of operational testing requirements for Navy systems.

  OH-58F Kiowa Warrior Cockpit and Sensor Upgrade Program Objective: Determine whether the
  Army is effectively managing and developing the OH-58F Cockpit and Sensor Upgrade Program for low-
  rate initial production.

  Ohio-Class Replacement Submarine and Implementation of the Better Buying Power Initiative
  Objective: Determine whether Naval Sea Systems Command is effectively executing Better Buying Power
  initiatives mandated by the Under Secretary of Defense (Acquisition, Technology, and Logistics) in the
  acquisition of the Ohio-Class Replacement Submarine; and whether Naval Sea Systems Command has
  appropriately assessed the affordability of the Ohio-Class Replacement Submarine. (A series of audits is
  planned.)

  Special Operations Forces–Unique Equipment Validation Process Objective: Determine whether
  Special Operations Command adequately validated its Special Operations Forces-unique acquisition
  requirements. Specifically, review the extent to which Special Operations Command officials have
  validated requirements, controlled requirements creep, and responded to changes occurring after the
  approval of requirements documents.




                                                    2
Deputy Inspector General for Auditing FY 2014 Audit Plan



                              CONTRACT MANAGEMENT


ONGOING PROJECTS
  Camp Lemonnier, Djibouti, Africa, Base Operations Support Contract (D2013-D000RD-
  0206.000) Objective: Determine whether DoD officials are effectively administering the base operations
  support contract at Camp Lemonnier, Djibouti.

  Contract Administration for Installation Support Operations at Camp As Sayliyah (D2013-
  D000JB-0106.000) The audit will be the second in a series of reports on the Camp As Sayliyah, Qatar
  Base Operations Support Services Contract. Objective: Determine whether DoD officials are properly
  administering the Camp As Sayliyah, Qatar Base Operations Support Services Contract. Specifically,
  determine whether DoD officials are effectively reviewing contractor invoices and purchase requests
  before approval.

  Contract Management and Oversight of Military Construction Projects for the Special Operations
  Forces Complexes at Bagram Airfield, Afghanistan (D2012-D000JO-0221.000)
  Objective: Determine whether DoD is providing effective oversight of military construction projects in
  Afghanistan and determine whether the U.S. Army Corps of Engineers is properly monitoring contractor
  performance and adequately performing quality assurance oversight responsibilities for construction
  projects for Special Operations Forces at Bagram Airfield.

  Contracts Supporting the Defense Enterprise Accounting and Management System (D2012-
  D000FH-0109.000) Objective: Determine whether DoD and U.S. Air Force officials administered
  contracts supporting the Defense Enterprise Accounting Management System in an effective and efficient
  manner. Specifically, determine whether government oversight of contractor performance is adequate;
  quality assurance plans have been adequately implemented; contracts are funded in accordance with
  applicable regulations; and modifications that increase contract costs are properly supported.

  Defense Hotline Allegations Concerning Labor Rates for the Counter Narco-Terrorism
  Technology Program (D2013-D000AT-0166.000) Objective: Determine whether DoD was properly
  charged labor rates for the Counter Narco-Terrorism Technology Program on contract W9113M-07-D-
  0007.

  Defense Logistics Agency Contracts for Defense Advanced GPS Receiver Accessories (D2013-
  D000DC-0084.000) Objective: Determine whether the Defense Logistics Agency negotiated fair and
  reasonable prices for Defense Advanced GPS Receiver accessories.

  DoD Compliance With the Berry Amendment (D2013-D000CG-0208.000) Objective: Determine
  whether DoD personnel complied with the Berry Amendment when they purchased covered items.

  DoD Phase III Small Business Innovative Research Contracts Awarded to Other Than Small
  Businesses (D2013-D000CG-0066.000) Objective: Determine whether the Services are properly
  awarding Phase III Small Business Innovative Research contracts to other than small businesses.
  Specifically, determine whether the Services are considering small-business intellectual property rights and
  are properly notifying the Small Business Administration of the contract award.




                                                     3
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Department of the Navy’s Financial Improvement and Audit Readiness Program Contract
  (D2012-D000DE-0192.000) Objective: Determine whether there is effective oversight of the
  contract(s) for the Navy’s Financial Improvement and Audit Readiness Program.

  Fort Knox Energy Program Contracts (D2013-D000CG-0205.000) Objective: Determine whether
  the contracts and task orders related to the energy program at Fort Knox, Kentucky, were properly
  awarded and administered.

  Hotline Allegations Concerning the Fort Huachuca, Army Contracting Command–Aberdeen
  Proving Ground Contract Administration and Oversight Functions (D2013-D000CG-0187.000)
  Objective: Determine the adequacy of cost-control procedures and contract administration for cost-plus-
  award-fee contract W91RUS-10-C-0001, including all contract modifications, used at Fort Huachuca,
  Army Contracting Command–Aberdeen Proving Ground.

  Missile Defense Agency and the Defense Microelectronics Activity Compliance with Federal
  Acquisition Regulation Revisions for the Use of Cost-Reimbursement Contracts (D2013-
  D000CG-0170.000) The subject audit is the third in a series of audits of DoD compliance with the
  Federal Acquisition Regulation revisions for the use of cost-reimbursement contracts.
  Objective: Determine whether the Missile Defense Agency and the Defense Microelectronics Activity
  complied with interim Federal Acquisition Regulation revisions on the use of cost-reimbursable contracts.
  We will consider suggestions from management on additional or revised objectives.

  Multiple Award Contracts for Services at Naval Facilities Engineering Command (D2013-
  D000CF-0141.000) Objective: Determine whether the Naval Facilities Engineering Command
  properly awarded task orders under multiple award contracts for services. Also, determine whether fair
  opportunity to compete was provided and whether determinations of price reasonableness were
  adequately supported, in accordance with Federal and DoD policy.

  Multiple Award Contracts for Services at Washington Headquarters Services (D2013-D000CF-
  0139.000) This is the first in a series of audits to review multiple award contracts for services at
  Washington Headquarters Services. Objective: Determine whether Washington Headquarters Services
  contracting officials complied with the Federal Acquisition Regulation and other rules and regulations for
  the solicitation, award, and management of HQ0034-ll-D-0001, HQ0034-11-D-0002, and HQ0034-
  11-D-0003-a set of multiple award contracts for information technology solutions and HQ0034-12-D-
  0021 ,HQ0034-12-D-0022, and HQ0034-12-D-0023-a set of multiple award contracts for program
  management, knowledge management, administrative, and survey services.

  Naval Compliance with Federal Acquisition Regulation Revisions for the Use of Cost-
  Reimbursement Contracts (D2013-D000CG-0211.000) This is the fourth in a series.
  Objective: Determine whether the Navy and Marine Corps complied with interim Federal Acquisition
  Regulation revisions on the use of cost-reimbursable contracts.

  Price Reasonableness Determinations for Datron World Communications, Inc. Contracts Awarded
  by the U.S. Army Contracting Command for the Afghan National Security Forces (D2013-
  D000AT-0083.000) This audit is the second in a series of audits on the Afghanistan National Security
  Forces radio contracts. Objective: Determine whether the U.S. Army Contracting Command obtained
  fair and reasonable prices for communications equipment and components procured from Datron World
  Communications, Inc. for the Afghan National Security Forces.

  Requirements Development Process for Military Construction Projects at Camp Lemonnier,
  Djibouti (D2013-D000RE-0220.000) Objective: Determine whether DoD officials had valid
  requirements for military construction projects at Camp Lemonnier, Djibouti, in accordance with
  applicable guidance. This is the first in a series of audits on military construction projects at Camp
  Lemonnier.


                                                     4
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Shindand Training Contracts (D2013-D000AS-0052.000) Objective: Determine whether pilot
  training contracts for fixed-wing and rotary-wing aircraft at Shindand Air Base are properly managed and
  administered in accordance with Federal and DoD requirements. Specifically, determine whether
  contract requirements are being met and evaluate the effectiveness of contract oversight.

  Surveillance Structure on Contract Supporting the Afghanistan Rotary Wing Program for the U.S.
  Transportation Command (D2013-D000AS-0001.000) This is the second in a series of audits on the
  Afghanistan rotary wing transport contracts. Objective: Determine whether U.S. Transportation
  Command and U.S. Central Command officials have adequate oversight of processes and procedures for
  the contracts.



PLANNED PROJECTS
  8(a) Alaska Native Corporation Contracting: Contracting Advantages and Potential Pass-
  Through(s) Objective: Evaluate whether controls were effective over the 8(a) Alaska Native Corporation
  program related to DoD contract awards to Alaska Native corporations.

  Afghan Air Force Light Air Support Aircraft Objective: Determine whether Air Force officials
  properly administered and performed oversight on the Light Air Support Indefinite Delivery Indefinite
  Quantity contract. Specifically, determine whether Air Force officials properly administered the Light Air
  Support Indefinite Delivery Indefinite Quantity contract. Additionally, determine whether Air Force
  officials effectively performed oversight of the Light Air Support Aircraft. (A series of audits is planned.)

  Contracting Support in Afghanistan Objective: Determine whether contracts to support U.S. forces in
  Afghanistan adequately describe the functions required and have proper oversight.

  Contractor Past Performance Information Objective: Determine whether the new guidance has
  resulted in better compliance and a more complete and useful database of contractor past performance
  information.

  Congressionally Mandated Section 942 Review Objective: Determine whether the Department
  complied with the requirements in United States Code Title 10, Section 2330a and determine whether
  the Secretary of Defense made the required certifications related to service contracts.

  Defense Logistics Agency Controls over the Assignment and Management of Commercial and
  Government Entity Codes Objective: Determine if the Defense Logistics Agency effectively manages
  commercial and Government entity (CAGE) codes. Specifically, evaluate Defense Logistics Agency
  controls over the assignment of CAGE codes and its review of CAGE codes during the contract award
  process. In addition, determine whether Defense Logistics Agency is taking appropriate actions against
  poor-performing contractors that obtained multiple cage codes. (A series of audits is planned.)

  Defense Logistics Agency Product Quality Deficiency Report Processing Objective: Evaluate the
  controls over Defense Logistics Agency Product Quality Deficiency Report Processing. Specifically,
  determine if personnel are adequately identifying the root cause of the quality deficiencies and if they are
  pursuing appropriate restitution from responsible contractors.

  Enhanced Army Global Logistics Enterprise Contract Program Objective: Determine whether Army
  Contracting Command–Rock Island officials properly awarded and administered the Enhanced Army
  Global Logistics Enterprise basic ordering agreements and associated task orders in accordance with
  Federal and DoD guidance.




                                                     5
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Joint Multinational Training Readiness Center Task Orders Objective: Evaluate whether the
  allegations to the Defense Hotline concerning task orders issued against the Warfighter Field Operations
  Customer Support contract for the Joint Multinational Readiness Center have merit. Specifically,
  determine whether Program Executive Office for Simulation, Training, and Instrumentation is awarding
  and administering the Joint Multinational Readiness Center task orders and providing contract oversight
  in accordance with Federal and DoD guidelines.

  Multiple Award Contracts for Services Objective: Determine whether DoD officials adequately
  performed contract award and oversight and whether the contractor adequately performed the contracted
  requirements.

  Naval Support Activity Bahrain Military Construction Contract Administration
  Objective: Determine whether the U.S. Army Corps of Engineers awarded Naval Support Activity
  Bahrain military construction projects in accordance with Federal and DoD regulations. Specifically,
  determine whether officials are using appropriate contracting processes to satisfy Naval Support Activity
  Bahrain military construction project requirements.

  Naval Support Activity Bahrain Military Construction Planning Objective: Evaluate the
  requirements development and planning for military construction projects in Bahrain. Specifically,
  determine whether the requirements development and planning processes resulted in requirements that
  meet DoD’s needs.




                                                    6
Deputy Inspector General for Auditing FY 2014 Audit Plan


                 PARTS UTILIZATION AND PROCUREMENT


ONGOING PROJECTS
  Air Force’s Performance-Based Logistics Contracts With the Lockheed Martin Corporation and
  the Rolls-Royce Corporation for the C-130J Hercules Aircraft (D2013-D000CH-0157.000)
  Objective: Evaluate the cost effectiveness of material purchases made for the C-130J Hercules aircraft
  through performance-based logistics contracts with the Lockheed Martin Corporation and the Rolls-
  Royce Corporation.

  Defense Logistics Agency Sole-Source Spare Parts Procurements From Bell Helicopter Textron
  (D2013-D000CH-0151.000) Objective: Determine whether the Defense Logistics Agency is
  purchasing sole-source commercial parts at fair and reasonable prices from Bell Helicopter Textron.

  Department of the Navy and General Electric Support for the F/A-18 Engines (D2013-D000AT-
  0168.000) Objective: Determine if the Department of the Navy is effectively managing the
  Performance-Based Logistics contracts and commercial service agreements for the F/A-18 engines.

  High Mobility Multipurpose Wheeled Vehicles Repair Parts Pricing through Partnership
  Agreements with AM General LLC (D2013-D000JA-0098.000) This audit is the second in a series
  of audits regarding DoD management of repair parts for High Mobility Multipurpose Wheeled Vehicles.
  Objective: Determine whether the Defense Logistics Agency obtained fair and reasonable prices for its
  integrated logistics partnership contract with AM General LLC to manage High Mobility Multipurpose
  Wheeled Vehicles repair parts.

  Sole-Source Spare Parts Purchased From Ontic Engineering (D2013-D000CH-0153.000)
  Objective: Determine whether the DoD is purchasing sole-source spare parts at fair and reasonable prices
  from Ontic Engineering.

  Spare Parts Inventories for Military Sealift Command Roll-on/Roll off Ships (D2012-D000LD-
  0219.000) Objective: Determine whether the Military Sealift Command is effectively managing the
  quantities of spare parts in inventory and procuring the spare parts at fair and reasonable prices for the
  large, medium speed, roll-on/roll-off ships in the Sealift Surge Program.

  U.S. Air Force F119 Engine Spare Parts Procured from Pratt and Whitney for the F-22 Raptor
  (D2013-D000AT-0118.000) Objective: Determine whether the U.S. Air Force is purchasing sole-
  source F119 engine spare parts at fair and reasonable prices from Pratt and Whitney for the F-22 Raptor.




                                                     7
Deputy Inspector General for Auditing FY 2014 Audit Plan

PLANNED PROJECTS
  Accountability of Afghanistan National Security Forces Mi-17, Mi-35, AN-26, and AN-32
  Aircraft Spare Parts Objective: Determine whether DoD officials properly planned, procured, stored,
  and maintained accountability of aircraft parts for the Afghan National Security Forces (ANSF).
  Specifically, determine whether the Army properly accounted for and controlled parts inventories
  purchased to support the ANSF; and whether those parts were properly delivered to the ANSF.
  Additionally, determine whether the Army based the development of requirements for the ANSF aircraft
  spare parts on realistic and sustainable logistical plans. (A series of audits is planned.)

  DLAs Controls Over Contractor Procurements Through DoD Electronic Mall
  Objective: Determine whether DLA has adequate controls and oversight for ensuring contractors’
  procurements of parts and components made through the DoD Electronic Mall are required in the
  performance of their contract.

  Defense Logistics Agency Sole-Source Spare Parts Procurements Objective: Determine whether
  Defense Logistics Agency is purchasing sole-source spare parts at fair and reasonable prices. (A series of
  audits is planned.)

  Effective Utilization and Accountability of Government-Owned Inventory Objective: Determine
  whether Government-owned inventory is being used effectively before procuring the same parts from
  private contractors; the prices paid for parts were fair and reasonable; and DoD is properly accounting for
  Government-owned inventory managed by private contractors. (A series of audits is planned.)

  Excess Inventory Managed by the Defense Logistics Agency Land and Maritime Supply Chain
  Objective: Determine if Defense Logistics Agency Land and Maritime has effective processes to manage
  excess inventory and identify and cancel orders and contracts for the acquisition of unneeded spare parts.

  Naval Sea Systems Command Spare Parts Requirements at the Norfolk Naval Shipyard Depot for
  the Arleigh Burke–Class Destroyer Objective: Evaluate whether spare parts requirements for the
  Arleigh Burke–Class Destroyer at the Norfolk Naval Shipyard Depot efficiently and effectively meet
  mission needs. (A series of audits is planned.)




                                                     8
Deputy Inspector General for Auditing FY 2014 Audit Plan


                              FINANCIAL MANAGEMENT


ONGOING PROJECTS
  Attestation of Department of State Funds Transferred to DoD for Human Immunodeficiency
  Virus/Acquired Immune Deficiency Syndrome Prevention (D2013-D000DD-0100.000) DoD IG
  is performing this review in accordance with Public Law 111-117, “Department of State, Foreign
  Operations, and Related Programs Appropriations Act of 2010.” Objective: Attest to whether DoD used
  Global Health and Child Survival funds transferred from the Department of State to support efforts to
  meet the goals set forth in the U.S. Leadership Act and the President’s Emergency Plan for AIDS Relief.
  We will perform sufficient work to express a conclusion and provide negative assurance regarding the use
  of Global Health and Child Survival funds received from the Department of State for HIV/AIDS
  prevention. To provide a negative assurance, the procedures we perform will be limited primarily to
  inquiries and analytical procedures.

  Controls Over Cash and Other Monetary Assets at Overseas Army Finance Command Disbursing
  Operations (D2011-D000FP-0260.001) Objective: Determine whether internal controls at the
  Army’s disbursing stations in Saudi Arabia and Kuwait were effectively designed and operating adequately
  to safeguard, account for, document, and report cash and other monetary assets held at those sites. In
  addition, evaluate whether the Army Finance Command effectively implemented technical oversight and
  provided assistance to Army disbursing sites that did not have oversight by an Army Financial
  Management Center.

  Examination of Department of Defense Execution of North Atlantic Treaty Organization
  Contributing Countries Donations to Afghanistan National Army Trust Fund for Approved
  Sustainment Projects as of September 30, 2012 (D2013-D000FL-0056.000) Objective: Determine
  whether the Under Secretary of Defense (Comptroller)/Chief Financial Officer fairly presented receipts
  and expenditures of funds contributed to the Afghanistan National Army Trust Fund and transferred to
  DoD for execution under the terms of the Memorandum of Understanding Among the United States of
  America and North Atlantic Treaty Organization and Supreme Headquarters Allied Powers–Europe
  regarding management and administration of trust fund donations for support and sustainment of the
  Afghanistan National Army. Also, review internal controls over financial reporting and compliance with
  laws and regulations as it relates to our engagement objective. Our responsibility is to express an opinion
  based on our examination.

  Funding Used for the Korean War 60-Year Commemoration (D2013-D000FE-0150.000) Public
  Law 111-383, dated January 7, 2011, requires the Inspector General of the Department of Defense to
  submit to Congress, not later than 60 days after the end of the commemorative program, a report
  containing an accounting of the Department of Defense Korean War Commemoration Fund.
  Objective: Determine whether the accounting of the funds used by the Department of Defense for the
  Korean War 60-year commemoration was accurate and complete.

  Need for Cash at DoD Disbursing Offices (D2013-D000FE-0117.000) Objective: Determine
  whether selected DoD disbursing offices are holding appropriate amounts of cash on hand and cash in
  limited depositary checking accounts. Additionally, determine whether controls are in place to assess cash
  holding requirements accurately at selected DoD disbursing offices.




                                                     9
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Unliquidated Obligations at the Norfolk Ship Support Activity (D2013-D000DE-0180.000)
  Objective: Determine the accuracy of unliquidated obligations at the Norfolk Ship Support Activity in
  Norfolk, Virginia and assess whether unliquidated obligations certified during the triannual review
  process are accurate.

PLANNED PROJECTS
  Agreed-Upon Procedures for Reviewing the FY 2014 Civilian Payroll Withholding Data and
  Enrollment Information Objective: Assist the Office of Personnel Management (OPM) in assessing
  whether Health Benefits, Life Insurance, and Retirement contributions and withholdings, and enrollment
  information submitted by the Defense Finance and Accounting Service to OPM for FY 2014 were
  reasonable and accurate. In addition, assist OPM in identifying and correcting errors related to the
  processing and distributing Combined Federal Campaign payroll deductions. We will assist OPM by
  performing agreed-upon procedures agreed to by the OPM Chief Financial Officer and OPM Inspector
  General.

  Attestation Review of the DoD Counterdrug Program FY 2013 Obligations Objective: Attest as to
  whether the funds DoD obligated for the National Drug Control Program in FY 2013 are reported, in all
  material respects, in conformity with the Office of National Drug Control Policy Circular “Accounting of
  Drug Control Funding and Performance Summary,” January 18, 2013.

  Attestation Review of the DoD Counterdrug Program FY 2013 Performance Summary Report
  Objective: Attest as to whether the FY 2013 DoD Performance Summary Report is presented, in all
  material respects, in conformity with the Office of National Drug Control Policy Circular "Accounting of
  Drug Control Funding and Performance Summary," January 18, 2013.

  DoD FY 2013 Conference Spending Objective: Determine whether DoD’s spending to host and
  attend selected DoD hosted conferences was in compliance with applicable laws and regulations.
  Specifically, determine whether the reported costs for these conferences were accurate and complete.

  Department of the Navy's Compliance with Federal Real Property Asset Management
  Requirements Objective: Assess Department of Navy compliance with the Real Property Asset
  Management Requirements. Specifically, examine whether the Navy’s processes for its real-property
  accountability meet the requirements of Federal, DoD, and specific Military Department requirements.
  Also review whether the Navy has begun monitoring the operational effectiveness of these processes and
  systems.

  Examination of DoD Execution of North Atlantic Treaty Organization Contributing Countries
  Donations to Afghanistan National Army Trust Fund for FY 2013 Objective: Determine whether
  the Under Secretary of Defense (Comptroller)/Chief Financial Officer fairly presented receipts and
  expenditures of funds contributed to the Afghan National Army Trust Fund and transferred to DoD for
  execution under the terms of the Memorandum of Understanding Among the United States of America
  and North Atlantic Treaty Organization and Supreme Headquarters Allied Powers–Europe Regarding
  Management and Administration of Trust Fund Donations for Support and Sustainment of the
  Afghanistan National Army through FY 2013. In addition, review internal controls over financial
  reporting and compliance with laws and regulations as it relates to our engagement objective.

  Off-Installation Cooperative Sikes Act Agreements Objective: Determine whether each natural-
  resources project that is not on a military installation and is funded with amounts available to the
  Department of Defense under the FY 14 National Defense Authorization Act is carried out in
  compliance with applicable laws and regulations.




                                                   10
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Potential Costs Saving and Efficiencies Within the DoD Permanent Change of Station Program
  Objective: Determine whether DoD can achieve cost savings and efficiencies in the Permanent Change of
  Station program.

  U.S. Military Academy, West Point Controls over Gift Processes and Gift and Nonappropriated
  Fund Contracting Objective: Assess the controls over U.S. Military Academy processes for accepting
  and recording monetary and nonmonetary gifts. In addition, assess the controls over using gift and
  nonappropriated funds for contracts.

AUDIT READINESS
ONGOING PROJECTS
  Army General Funds Appropriation Status Reporting (D2013-D000FI-0060.000) Objective: Assess
  the reliability of the data reported in the Army General Funds "Appropriation Status by Fiscal Year
  Program and Subaccounts Report" (AR[M] 1002).

  Attestation of the Existence, Completeness, Rights and Obligations, and Presentation and
  Disclosure of the Department of the Navy’s Ordnance (D2013-D000DE-0164.000) The
  Department of the Navy reasserted audit readiness of its existence, completeness, rights and obligations,
  and presentation and disclosure of ordnance, on February 28, 2013. Objective: Determine whether the
  Navy accurately accounted for the existence, completeness, rights and obligations, and presentation and
  disclosure of its ordnance, excluding Navy ordnance in the physical custody of the Army as of June 30,
  2013, and review the internal controls related to accountability and compliance with laws and regulations
  as it relates to the objective.

  Defense Enterprise Accounting and Management System Order-to-Cash Process (D2012-
  D000FH-0158.000) Objectives: Determine whether the Air Force’s controls over recording accounting
  transactions within the Defense Enterprise Accounting and Management System Order-to-Cash business
  process are adequate, and determine whether Defense Enterprise Accounting and Management System
  Order-to-Cash transactions are supported with verifiable audit trails.

  Defense Logistics Agency Enterprise Business System Procure-To-Pay Business Process (D2013-
  D000FI-0172.000) Objective: Determine whether the Enterprise Architecture Procure-to-Pay business
  process is properly supporting the purchase of Defense Logistics Agency goods and services and is
  generating accurate, reliable financial-management information.

  Department of the Army Financial Improvement Plan (D2012-D000FI-0111.000)
  Objective: Determine whether the Department of the Army is effectively managing its Financial
  Improvement Plan, including contractor support, to meet financial improvement and audit readiness
  goals.

  General Fund Enterprise Business System Implementation of the DoD Business Enterprise
  Architecture Budget-to-Report Business Process (D2013-D000FL-0156.000) Objective: Determine
  whether the General Fund Enterprise Business System Program Management Office implemented the
  DoD Business Enterprise Architecture Budget-to-Report Business Process to properly support the Army
  General Fund Statement of Budgetary Resources.

  Global Combat Support System-Army Reliability of Financial Information (D2013-D000FL-
  0163.000) Objective: Determine whether the Army fielded the Global Combat Support System–Army
  with the proper functionality to provide reliable financial information and support audit readiness
  requirements.




                                                   11
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Logistics Modernization Program System Implementation of the DoD Business Enterprise
  Architecture Budget-to-Report Business Process (D2013-D000FI-0059.000) Objective: Determine
  whether the Logistics Modernization Program system Program Management Office implemented the
  DoD Business Enterprise Architecture Budget-to-Report business process to properly support the Army
  Working Capital Fund Statement of Budgetary Resources.

PLANNED PROJECTS
  Army’s Use of the Army Fund Balance With Treasury Tool in the Reconciliation of the Fund
  Balance With Treasury Objective: Determine whether the Army Fund Balance With Treasury Tool
  provides reasonable assurance that there are no material misstatements or unrecorded transactions in the
  Army General Fund Balance With Treasury.

  Attestation of the Department of the Navy's Fund Balance with Treasury Management Assertion
  on Audit Readiness Objective: Provide reasonable assurance of the accuracy and adequacy of the
  Department of Navy’s Fund Balance with Treasury reconciliation process. Also, review internal controls
  related to the Navy’s accountability over its Fund Balance with Treasury and compliance with laws and
  regulations as it relates to the objective.

  Defense Finance and Accounting Service Reconciliation and Elimination of the Other Defense
  Organizations Intragovernmental Transactions Reported on the DoD FY 2013 Agency-Wide Basic
  Financial Statements Objective: Determine if Defense Finance and Accounting Service properly
  eliminated intragovenrmental account balances between DoD Components and other Federal agencies.

  Efficiency of the Department of Defense Enterprise Resource Planning Systems
  Objective: Determine whether DoD’s implementation of the Enterprise Resource Planning Systems has
  streamlined business processes and eliminated legacy systems.

  Examination of Army's Assertion to Existence, Completeness, and Rights of Operating Materials
  and Supplies Objective: Determine whether the Army accurately accounted for the existence,
  completeness, rights and obligations of Operating Material and Supplies as of December 2013. In
  addition, review internal controls related to the Army’s accountability of operating material and supplies.

  Examination of Army Management's Assertion of Existence, Completeness, and Rights for General
  Equipment Objective: Determine whether the Department of the Army accurately accounted for the
  existence, completeness, and rights of general equipment as of December 2013. In addition, review
  internal controls related to the Army’s accountability of general equipment.

  Examination of Army Management's Assertion for Existence and Completeness and Rights of
  Military Equipment Assets Objective: Determine whether the Army accurately accounted for the
  existence and completeness and rights of military equipment assets as of December 31, 2013. In
  addition, review internal controls related to the Army’s accountability for military-equipment assets.

  FY 2014 Certifications for Defense Business Systems Investments Objective: Determine whether the
  Deputy Chief Management Officers’ certifications of Organizational Execution Plans appropriately
  considered the status of compliance with the Business Enterprise Architecture and accomplishment of
  business process reengineering in DoD-targeted accounting systems.

  Global Combat Support System-Army Implementation of the DoD Business Enterprise
  Architecture Budget-to-Report Business Process Objective: Determine whether the Global Combat
  Support System–Army (GCSS-A) Program Management Office properly implemented the Business
  Enterprise Architecture Budget-to-Report business process in accordance with DoD business process re-
  engineering requirements. In addition, determine whether GCSS-A supports the Army General Fund
  Statement of Budgetary Resources FY 2014 audit readiness requirement.


                                                    12
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Logistics Modernization Program System Stocking, Distributing, and Accountability of
  Government Furnished Materials Objective: Determine whether the Logistics Modernization Program
  system implemented selected aspects of the DoD Business Enterprise Architecture Plan-to-Stock
  Inventory Management business process to properly record Government Furnished Materials.
  Specifically, determine whether the Logistics Modernization Program correctly recorded Army Working
  Capital Fund inventory transactions related to Government Furnished Materials within the general ledger
  accounts and accountability records for received, accepted, warehoused and distributed Government
  Furnished Materials and supported them with verifiable audit trails.

  Post Audit Review of the Defense Finance and Accounting Service Civilian Pay Process
  Objective: Determine the adequacy of the independent public accountant firm’s procedures in evaluating
  the effectiveness of the controls of the Defense Finance and Accounting Services Civilian Pay functions.

  Use of Enterprise Resource Planning System to Comply with Department Debt Management
  Requirements Objective: Determine if the Enterprise Resource Planning system diminishes the accounts
  receivable material weakness. Specifically, determine if the Enterprise Resource Planning system is in
  accordance with issued delinquent debt management guidance.




FINANCIAL STATEMENTS
ONGOING PROJECTS
  Air Force General Fund Basic Financial Statements for the Fiscal Years Ending
  September 30, 2013, and September 30, 2012 (D2013-D000DD-0126.000) Objective: Determine
  whether the Air Force General Fund Financial Statements as of September 30, 2013, and September 30,
  2012, taken as a whole, were present fairly, in all material respects, and in conformity with accounting
  principles generally accepted in the United States of America. Also, determine whether these principles
  were consistently applied and review the Air Force General Fund Consolidated Balance Sheet as of
  September 30, 2013, and September 30, 2012, and the related Consolidated Statement of Net Cost,
  Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and
  related notes. Additionally, review the Required Supplementary Stewardship Information, Required
  Supplementary Information, and Other Accompanying information. Also review internal controls
  related to the reliability of financial reporting and compliance with laws and regulations that apply to
  these financial statements.

  Air Force Working Capital Fund Basic Financial Statements, Fiscal Years Ended September 30,
  2013 and 2012 (D2013-D000DD-0127.000) Objective: Determine whether the FY 2013 Air Force
  Working Capital Fund financial statements, present fairly, in all material respects, its financial position,
  net cost of operations, changes in financial position, and the status of its budgetary resources, in
  conformity with Generally Accepted Accounting Principles. DoD IG will make limited reviews of Air
  Force Internal Controls over Financial Reporting and compliance with laws and regulations related to the
  financial statements. DoD IG will not express an opinion on the reliability of Internal Controls over
  Financial Reporting or compliance with laws.




                                                    13
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Army General Fund Basic Financial Statements for the Fiscal Years Ending September 30, 2013
  and September 30, 2012 (D2013-D000FI-0119.000) Objective: Determine whether the Army has
  fairly presented the Army General Fund Principal Financial Statements, as of September 30, 2013 and
  2012, taken as a whole, in all material respects, and in conformity with accounting principles generally
  accepted in the United States of America. Also, review the Consolidated Balance Sheet as of September
  30, 2013 and 2012; the related Consolidated Statements of Net Cost and Changes in Net Position; and
  the Combined Statement of Budgetary Resources for the years then ended and review internal controls
  over financial reporting and compliance with laws and regulations related to the financial statements.

  Army Working Capital Fund Basic Financial Statements for Fiscal Years Ending September 30,
  2013, and September 30, 2012 (D2013-D000FI-0116.000) Objective: Determine whether the
  Army Working Capital Fund Basic Financial Statements, taken as a whole, were presented fairly, in all
  material respects, and in conformity with accounting principles generally accepted in the United States of
  America. Additionally, determine whether these principles were consistently applied. Also review the
  Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2013, and September 30,
  2012, and the related Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net
  Position, Combined Statement of Budgetary Resources, and related notes. Additionally, review the
  Required Supplementary Information and Other Accompanying Information. In addition, review
  internal controls related to the reliability of financial reporting and compliance with laws and regulations
  that apply to these financial statements.

  Department of the Navy General Fund Basic Financial Statements for Fiscal Years Ending
  September 30, 2013, and September 30, 2012 (D2013-D000DE-0123.000) Objective: Determine
  whether the principal Navy General Fund Financial Statements as of September 30, 2013 and 2012
  taken as a whole were presented fairly in all material respects and in conformity with Generally Accepted
  Accounting Principles.

  Department of the Navy Working Capital Fund Basic Financial Statements for Fiscal Years
  Ending September 30, 2013, and September 30, 2012 (D2013-D000DE-0122.000)
  Objective: Determine whether the principal Navy Working Capital Fund Financial Statements as of
  September 30, 2013 and 2012 taken as a whole were presented fairly in all material respects and in
  conformity with Generally Accepted Accounting Principles.

  DoD Agency-Wide Basic Financial Statements for Fiscal Years Ending September 30, 2013 and
  September 30, 2012 (D2013-D000FE-0121.000) Objective: Determine whether the DoD Agency-
  Wide Basic Financial Statements as of September 30,2013 and September 30,2012, taken as a whole,
  were presented fairly, in all material respects, and in conformity with accounting principles generally
  accepted in the United States of America. Additionally, determine whether these principles were
  consistently applied. Also, review the DoD Agency-Wide Consolidated Balance Sheet as of September
  30, 2013 and September 30, 2012, and the related Consolidated Statement of Net Cost, Consolidated
  Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and related notes.
  Additionally, review the Required Supplementary Stewardship Information, Required Supplementary
  Information, and Other Accompanying Information. Also, review internal controls related to the
  reliability of financial reporting and compliance with laws and regulations that apply to these financial
  statements.

  DoD Medicare-Eligible Retiree Health Care Fund Principal Financial Statements for Fiscal Years
  Ended September 30, 2013, and September 30, 2012 (D2013-D000DD-0124.000)
  Objective: Determine whether the Medicare-Eligible Retiree Health Care Fund financial statements and
  related footnotes, as of September 30, 2013, and September 30, 2012, taken as a whole, were presented
  fairly, in all material respects, and in conformity with accounting principles generally accepted in the
  United States of America.




                                                    14
Deputy Inspector General for Auditing FY 2014 Audit Plan
  DoD Special-Purpose (Closing-Package) Financial Statements for Fiscal Years Ending September
  30, 2013, and 2012 (D2013-D000FE-0226.000) Objective: Determine whether the audited DoD
  Special-Purpose (Closing-Package) Financial Statements and accompanying notes as of September 30,
  2013, and 2012, present fairly, in all material respects, DoD’s financial position, net costs, and changes in
  net position, in conformity with accounting principles generally accepted in the United States of America
  and the presentation requirements set forth in the Treasury Financial Manual, volume 1, part 2, chapter
  4700, (TFM 2-4700).

  Post Audit Review of the Defense Finance and Accounting Service FY 2012 Working Capital
  Fund Financial Statements (D2013-D000FH-0099.000) Objective: Determine whether the
  procedures performed by the Independent Public Accounting firm for the audit of the DFAS FY 2012
  Working Capital Fund financial statements were conducted in accordance with the generally accepted
  government auditing standards, as well as other criteria required to fulfill the contract requirements.
  Specifically, we will review the independent public accounting audit procedures for the financial
  statement material line items.

  Review of the Fiscal Year 2013 Military Retirement Fund Principal Financial Statements Audit
  (D2013-D000FP-0138.000) Objective: Determine whether the financial statements as of
  September 30, 2013 and 2012, are presented fairly and in conformity with accounting principles
  generally accepted in the United States of America.

  TRICARE Management Activity Contract Resource Management Principal Financial Statements
  for Fiscal Years Ended September 30 2013, and September 30, 2012 (D2013-D000DD-0125.000)
  Objective: Determine whether the Contract Resource Management financial statements and related
  footnotes, as of September 30, 2013, and September 30, 2012, taken as a whole, were presented fairly, in
  all material respects, and in conformity with accounting principles generally accepted in the United States
  of America.

  Schedule of Current Year Budgetary Activity for Fiscal Year 2012 (D2012-D000DE-0151.000)
  Objective: Determine whether the financial information reported on the Schedule is presented fairly, in
  all material respects, and in conformity with generally accepted accounting principles in the United States
  of America. In addition, review internal controls over the reliability of the financial reporting and
  compliance with laws and regulations that relate to the Schedule.

  U.S. Army Corps of Engineers–Civil Works Principal Financial Statements for Fiscal Years Ended
  September 30, 2013 and 2012 (D2013-D000FE-0096.000) Objective: Determine whether the
  financial statements as of September 30, 2013 and 2012, are presented fairly and in conformity with
  accounting principles generally accepted in the United States of America.

PLANNED PROJECTS
  Air Force General Fund Basic Financial Statements as of and for the Years Ending
  September 30, 2014 and 2013 Objective: Determine whether the FY 2014 Air Force General Fund
  financial statements, present fairly, in all material respects, its financial position, net cost of operations,
  changes in financial position, and the status of its budgetary resources, in conformity with Generally
  Accepted Accounting Principles. DoD IG will make limited reviews of Air Force Internal Controls over
  Financial Reporting and compliance with laws and regulations related to the financial statements. DoD
  IG will not express an opinion on the reliability of Internal Controls over Financial Reporting or
  compliance with laws.




                                                      15
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Air Force Working Capital Fund Basic Financial Statements as of and for the Years Ending
  September 30, 2014 and 2013 Objective: Determine whether the FY 2014 Air Force Working Capital
  Fund financial statements, present fairly, in all material respects, its financial position, net cost of
  operations, changes in financial position, and the status of its budgetary resources, in conformity with
  Generally Accepted Accounting Principles. DoD IG will make limited reviews of Air Force Internal
  Controls over Financial Reporting and compliance with laws and regulations related to the financial
  statements. DoD IG will not express an opinion on the reliability of Internal Controls over Financial
  Reporting or compliance with laws.

  DoD Agency-wide Basic Financial Statements for the Fiscal Years Ending September 30, 2014 and
  2013 Objective: Determine whether the DoD Agency-Wide financial statements as of
  September 30, 2014 and 2013, taken as a whole, were presented fairly, in all material respects, and in
  conformity with accounting principles generally accepted in the United States of America. In addition,
  determine whether these principles were consistently applied.

  DoD Medicare-Eligible Retiree Health Care Fund FY 2014 Financial Statements
  Objective: Determine whether the FY 2014 Medicare-Eligible Retiree Health Care Fund Financial
  Statements and related footnotes, taken as a whole, are presented fairly, in all material respects, in
  conformity with accounting principles generally accepted in the United States of America. Also review
  internal controls related to the reliability of financial reporting and compliance with laws and regulations
  that relate to the financial statements.

  DoD Special Purpose Financial Statements for the Fiscal Years Ending September 30, 2014 and
  2013 Objective: Provide an additional level of assurance on the process of reclassifying DoD audited
  financial statements. Specifically, determine whether the special purpose financial statements and
  accompanying notes fairly present, in all material respects, DoD financial position, net costs, and changes
  in net position in conformity with generally accepted United States accounting principles and the
  presentation requirements of Treasury Financial Manual chapter 4700.

  Department of the Army General Fund Basic Financial Statements for the Fiscal Years Ending
  September 30, 2014, and September 30, 2013 Objective: Determine whether the Army General Fund
  Basic Financial Statements, as of September 30, 2014, and September 30, 2013, taken as a whole, were
  presented fairly, in all material respects, and in conformity with accounting principles generally accepted
  in the United States of America. In addition, determine whether these principles were consistently
  applied. As part of the audit, review the Consolidated Balance Sheet as of September 30, 2014, and
  September 30, 2013, and the related Consolidated Statement of Net Cost, Consolidated Statement of
  Changes in Net Position, Combined Statement of Budgetary Resources, and related notes. In addition,
  review internal controls related to the reliability of financial reporting and compliance with laws and
  regulations that apply to these financial statements.

  Department of the Army Working Capital Fund Basic Financial Statements for the Fiscal Years
  Ending September 30, 2014, and September 30, 2013 Objective: Determine whether the Army
  Working Capital Fund Basic Financial Statements, as of September 30, 2014, and September 30, 2013,
  taken as a whole, were presented fairly, in all material respects, and in conformity with accounting
  principles generally accepted in the United States of America. In addition, determine whether these
  principles were consistently applied. As part of the audit, review the Consolidated Balance Sheet as of
  September 30, 2014, and September 30, 2013, the related Consolidated Statements of Net Cost,
  Consolidated Statement of Changes in Net Position, and Combined Statement of Budgetary Resources,
  and related notes. In addition, review internal controls related to the reliability of financial reporting and
  compliance with laws and regulations that apply to these financial statements.




                                                     16
Deputy Inspector General for Auditing FY 2014 Audit Plan
  FY 2014 Department of the Navy General Fund Financial Statements Objective: Determine
  whether the principal Navy General Fund Financial Statements as of September 30, 2014 and 2013
  taken as a whole were presented fairly in all material respects and in conformity with Generally Accepted
  Accounting Principles.

  FY 2014 Department of the Navy Working Capital Fund Financial Statements
  Objective: Determine whether the principal Navy Working Capital Fund Financial Statements as of
  September 30, 2014 and 2013 taken as a whole were presented fairly in all material respects and in
  conformity with Generally Accepted Accounting Principles.

  Fiscal Year 2014 U.S. Army Corps of Engineers–Civil Works Financial Statements
  Objective: Perform oversight procedures to review the Independent Public Accountant's work; and if
  applicable disclose instances where the Independent Public Accountant does not comply, in all material
  respects, with U.S. generally accepted government auditing standards. DoD IG will not express opinions
  on the U.S. Army corps of Engineers–Civil Works financial statements or internal control or on whether
  the financial management systems substantially complied with the Federal Financial Management
  Improvement Act of 1996, or on conclusions on compliance with laws and regulations.

  Oversight of the FY 2014 Military Retirement Fund Financial Statements Audit Objective: Oversee
  the FY 2014 financial statement audit work performed by a contracted Independent Public Accountant
  (IPA). The IPA will determine whether the FY 2014 Military Retirement Fund financial statements are
  presented fairly in accordance with Office of Management and Budget Circular A-136, “Financial
  Reporting Requirements.” The IPA will also assess internal controls and compliance with laws and
  regulations pertaining to the financial statements. In addition, the IPA will follow up on corrective
  actions resulting from previous audits of the Military Retirement Fund’s financial statements.

  TRICARE Management Activity Contract Resource Management FY 2014 Financial Statements
  Objective: Determine whether the FY 2014 TRICARE Management Activity Contract Resource
  Management Financial Statements and related footnotes, taken as a whole, are presented fairly, in all
  material respects, in conformity with accounting principles generally accepted in the United States of
  America. Also, review internal controls related to the reliability of financial reporting and compliance
  with laws and regulations that relate to the financial statements.

  United States Marine Corps General Fund Current Year Schedule of Transactions for FY 2014
  Objective: Determine whether the FY 2014 United States Marine Corps Schedule of Current Year
  Budgetary Activity and related note disclosures were presented fairly, in all material respects, in
  accordance with accounting principles generally accepted in the United States of America.




PAYMENTS
ONGOING PROJECTS
  Authorization and Administration of DoD Progress Payment Contracts (D2013-D000DD-
  0135.000) Objective: Determine whether DoD officials authorized and administered progress payments
  in DoD contracts in accordance with selected Federal Acquisition Regulation and DoD policies.

  Headquarters U.S. Southern Command Use of Government Purchase Cards (D2013-D000DC-
  0143.000) Objective: Determine whether the U.S. Southern Command’s use of Government purchase
  cards complies with applicable laws and regulations.




                                                   17
Deputy Inspector General for Auditing FY 2014 Audit Plan

PLANNED PROJECTS
  Billings by Skilled Nursing Facilities Objective: Determine whether adequate controls exist to prevent
  overpayments for TRICARE skilled nursing facility claims.

  DoD Aviation Into-Plane Reimbursement Card Program Objective: Determine whether the
  Department’s controls are effective to ensure appropriate use of the U.S. Government’s Aviation Into-
  Plane Reimbursement Card program and that improper payments are identified and recovered.

  DoD FY 2013 Compliance With the Improper Payments Elimination and Recovery Act
  Requirements Objective: Determine whether DoD is in compliance with Public Law 107-300,
  “Improper Payments Information Act of 2002,” November 26, 2002, as amended by Public Law 111-
  204. Also determine if reported improper payment rates for FY 2013 were accurate and complete.

  Government Travel Charge Card Transactions at Questionable Merchants Objective: Determine if
  DoD had adequate controls to prevent improper purchases or improper use of the Government travel
  charge card.

  Improper Payments to Excluded Medical Providers Objective: Determine whether TRICARE is
  improperly paying for medical services performed by individuals or entities on the Department of Health
  and Human Services List of Excluded Individuals and Entities.

  Joint POW-MIA Accounting Command Travel Objective: Determine whether official travel
  conducted by Joint POW-MIA Accounting Command personnel was properly authorized and executed
  in accordance with travel guidelines and regulations.




                                                  18
Deputy Inspector General for Auditing FY 2014 Audit Plan


                                         HEALTH CARE


ONGOING PROJECTS
  Military Services’ Delinquent Medical Service Accounts (D2013-D000CL-0182.000)
  Objective: Determine whether the Military Services and selected military treatment facilities, are
  effectively managing medical service accounts that are delinquent by 180 days or more.

  Negotiated Rates for the TRICARE Overseas Program (D2013-D000LF-0089.000) Objective:
  Determine the extent to which TRICARE Management Activity, through the TRICARE Overseas
  Program contractor, is negotiating and adhering to reasonable rates for health care services provided in
  overseas locations.

  U.S. Army Deployment Mental Health Screening (D2013-D000CJ-0215.000)
  Objective: Determine whether the U.S. Army military personnel are receiving required deployment
  mental health screenings.




                                                    19
Deputy Inspector General for Auditing FY 2014 Audit Plan


                                      CYBER SECURITY


ONGOING PROJECTS
  Implementation of the Vulnerability Management Program at the U.S. Central Command
  (D2013-D000LC-0169.000) Objective: Determine whether the U.S. Central Command’s
  vulnerability management program effectively identifies, remediates, and mitigates network
  vulnerabilities.

  Physical and Cyber Security Weaknesses Affecting U.S. Army Corps of Engineers, Civil Works,
  Infrastructure and Industrial Control Systems (D2013-D000LC-0145.000) Objective: Summarize
  the results of our previous audits on the U.S. Army Corps of Engineers civil-works critical infrastructure
  and industrial-control systems. Specifically, provide the U.S. Army Corps of Engineers with systemic
  issues affecting the physical and cyber security postures of civil-works infrastructure and industrial-control
  systems.

  Safeguards Implemented to Deter Insider Threats to Protected Health Information in Electronic
  Health Records (D2013-D000RB-0202.000) Objective: Determine whether health care professionals
  and military treatment facility officials are implementing safeguards to deter insider threats to patients’
  protected health information.

  Security Controls Over Navy’s Secret Internet Protocol Router Network Access Points (D2013-
  D000LC-0142.000) This is the first in a series of audits to review the controls implemented by the
  Military Departments for protecting the Secret Internet Protocol Router Network (SIPRNET).
  Objective: Determine whether the Navy is effectively protecting SIPRNET access points. Also, review
  the logical and physical controls protecting the SIPRNET access points at selected locations. We plan to
  audit each of the Military Departments separately.

PLANNED PROJECTS
  Combatant Command Joint Cyber Centers Objective: Determine whether the combatant commands
  are effectively managing their joint cyber centers to resource and conduct cyber operations.

  DoD Progress to Recruit, Train, and Retain its Cyberspace Operations Workforce
  Objective: Evaluate DoD’s progress in the current competitive national environment to recruit, train, and
  retain qualified personnel for its cyberspace workforce to succeed in the cyber domain.

  DoD’s Transition to Internet Protocol Version 6 Objective: Determine the challenges preventing
  DoD from migrating to Internet Protocol Version 6 and the risks of not migrating by the end of fiscal
  year 2014.

  Requirements and Strategy for DoD Migration to Cloud Computing Technology
  Objective: Determine whether DoD is effectively planning and executing a strategy for implementing
  cloud computing.




                                                     20
Deputy Inspector General for Auditing FY 2014 Audit Plan


                    JOINT WARFIGHTING AND READINESS


ONGOING PROJECTS
  Air Force Basic Expeditionary Airfield Resources Support and Spare Parts Kits in the U.S. Pacific
  Command (D2013-D000LA-0132.000) Objective: Determine whether the Air Force efficiently
  stocked and properly maintained Basic Expeditionary Airfield Resources support and spare parts kits in
  the U.S. Pacific Command area of responsibility.

  Ballistic Missile Defense System Targets (D2012-D000LH-0101.000) Objective: Evaluate whether
  the Ballistic Missile Defense System targets provides realistic operational conditions for identified threats
  and if the target program adapts to emerging threats.

  Civil Military Operations in the Horn of Africa (D2012-D000JA-0182.000) Objective: Determine
  whether Combined Joint Task Force–Horn of Africa personnel are adequately planning and executing
  civil military operations in accordance with U.S. Africa Command objectives.

  Defense Logistics Agency Supply Chain Management of Mission-Critical Batteries (D2013-
  D000LG-0091.000) Objective: Determine whether the Defense Logistics Agency is effectively fulfilling
  warfighter requirements for batteries designated mission-critical by the Military Services.

  Department of the Army's Special Program Requirements Determination Process for Spare Parts
  Ordered from the Defense Logistics Agency (D2013-D000AG-0231.000) Objective: Determine
  whether the Department of the Army is reasonably forecasting special program requirements for spare
  parts ordered from Defense Logistics Agency.

  Handling of Equipment at a Transfer Location in Southwest Asia (D2013-D000RF-0209.000)
  This is the third in a series of audits regarding U.S. Transportation Command’s support of the
  Afghanistan drawdown. Objective: Determine whether effective procedures are in place for processing
  equipment and materiel, including sensitive equipment, in Southwest Asia.

  Information Operations Assessments in Afghanistan (D2012-D000JA-0223.000)
  Objective: Determine whether U.S. Forces–Afghanistan has implemented sufficient controls for
  assessments of information operations.

  Multimodal Transfer Locations in Southwest Asia (D2013-D000JA-0155.000) This is the second
  in a series of audits regarding U.S. Transportation Command’s support of the Afghanistan drawdown.
  The first report (Report No. DODIG-2013-066) focused on U.S. Transportation Command’s planning
  to support the drawdown of equipment from Afghanistan. Objective: Determine whether effective
  procedures are in place to process equipment at transfer locations in Southwest Asia.

  Navy Management of Zero Demand Stock (D2013-D000LD-0146.000) Objective: Determine
  whether the Navy, in coordination with the Defense Logistics Agency, is effectively identifying and
  managing zero demand stock.

  Redistribution Property Assistance Team Operations in Afghanistan (D2013-D000JB-0133.000)
  Objective: Determine whether Redistribution Property Assistance Teams in Afghanistan have effective
  procedures in place to process equipment, to include preparation for shipment.



                                                     21
Deputy Inspector General for Auditing FY 2014 Audit Plan
  Security and Handling of Equipment Staged for Retrograde at Aerial Ports of Debarkation in
  Afghanistan (D2013-D000JB-0149.000) Objective: Determine whether DoD has effective controls
  over the storing and handling of equipment staged for shipment at the Aerial Ports of Debarkation in
  Afghanistan.

  U.S. Army Corps of Engineers Dam Safety Program Inspections (D2013-D000LA-0175.000)
  Objective: Determine whether U.S. Army Corps of Engineers Dam Safety Program inspections and
  exercises adequately assess the operations, maintenance, and structural stability of dams to mitigate
  public-safety risks.

  Use of Rare Earth Elements for the Defense Industrial Base (D2013-D000LA-0152.000)
  Objective: Determine whether DoD effectively planned for life-cycle sustainment of rare-earth elements
  for the Defense Industrial Base. Specifically, we will determine whether DoD effectively implemented
  procedures to maintain a sufficient and available supply of rare-earth elements for the Defense Industrial
  Base.

  V-22 Osprey’s Mission Readiness Rates, Maintainability, and Sustainment Cost (D2011-
  D000LH-0170.000) Objective: Evaluate how the frequency of repairs and the replacement of supply
  parts affected the V-22’s mission readiness from October 1, 2008 through September 30, 2011.



PLANNED PROJECTS
  Afghanistan Base Closure and Facilities Management Objective: Determine whether DoD officials
  have adequately planned and executed the closure of U.S. bases in Afghanistan, to include considering the
  status of completed and ongoing military construction projects when determining which bases to retain,
  transfer, or close.

  Defense Fuel Supply Points Utilization and Strategic Positioning Objective: Determine whether
  Defense Logistics Agency Energy’s Defense Fuel Support Points are appropriately positioned to meet
  various combatant command operational requirements.

  Defense Logistics Agency Long-Term Storage of Excess Property Objective: Determine if the
  Defense Logistics Agency’s long-term excess property storage facility is efficiently and effectively
  managed.

  DoD Energy Projects Objective: Determine whether the U.S. Army is effectively planning and
  implementing renewable energy projects.

  DoD Materiel Returns Program Objective: Determine whether DoD is managing the Materiel Returns
  Program efficiently and effectively. Specifically, determine whether retail activities are identifying and
  reporting excess materiel to DoD wholesale activities and taking action on excess materiel to maximize its
  use and minimize the cost of maintaining inventories.

  Property Losses in Afghanistan Objective: Determine whether DoD complied with applicable
  regulations for reporting equipment losses in Afghanistan and whether the losses have been accurately
  recorded in accountability systems.

  Retrograde of Force-Provider Equipment Objective: Determine whether DoD is effectively
  retrograding force-provider equipment from Afghanistan and whether the equipment is appropriately
  accounted for in systems of record.




                                                    22
Deputy Inspector General for Auditing FY 2014 Audit Plan



        Appendix A. FY 2014 Planned Audits by Source


                              FY 2014 Planned Projects
                                     by Source

     Management
      Request
        8%
  Hotline
   1%
                                                                                Self Initiated
Congressional                                                                       62%
  Request
    3%




       Statutory
         26%



            Self Initiated - 50 Projects              Statutory - 21 Projects
            Congressional Request - 2 Projects        Hotline - 1 Project
            Management Request - 6 Projects




                                                 23
Deputy Inspector General for Auditing FY 2014 Audit Plan



     Appendix B. FY 2014 Planned Audits by Risk Area



                                FY 2014 Planned Projects
                                      by Risk Area
               Acquisition
               Management                                                            Contract
                  14%                                                               Management
                                                                                       15%

   Joint Warfighting
    and Readiness
          9%                                                                             Parts Utilization
                                                                                         and Procurement
                                                                                                7%
   Cyber Security
        5%




                                                                                      Financial
                                                                                     Management
                                                                                        50%


        Acquisition Management - 11 Projects             Contract Management - 12 Projects
        Parts Utilization and Procurement - 6 Projects   Financial Management - 40 Projects
        Cyber Security - 4 Projects                      Joint Warfighting and Readiness - 7 Projects




                                                   24
Deputy Inspector General for Auditing FY 2014 Audit Plan

Appendix C. FY 2014 Planned Audit Coverage by DoD Strategic Goals and GAO High-Risk Areas

                                                                                                                                                                                                  GAO High-Risk Areas DoD Specific
                                                                                          DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                              Risks




                                                                                                                                                          in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                                Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                       Technologies Critical to U.S. National
                                                                                                                                                                                                  Approach to Business Transformation
                                                                                                                                                          Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                        Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Sharing and Managing Terrorism-
                                                                                                                      Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Managing Federal Real Property
                                                                                                                                                                                                                                        Business Systems Modernization
                                                                                                                       Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                         Weapons Systems Acquisition
                                                                                                                         Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                      Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   the Nation's Cyber Critical
                                                                                         Prevent and Deter Conflict




                                                                                                                                                                 of the Defense Enterprise
                                                                Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                                Support Infrastructure
                                                                                                                                                                                                                                                                                               Financial Management
                                                                                                                                                                                                                                                                         Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                                Security Interests
                                                                                                                               Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Infrastructures
                                                                                                                                Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                              Homeland
      Inspector General
      FY 2014 Planned Projects
                  Acquisition Management
Acquisition of Joint Light Tactical Vehicles for the Army and
                                                                X                                                                                                                                                                                                                                                                                                        X
the Marine Corps
Air Force Global Positioning System Ground Control Segment                                                                                                                                                                                                                                                                                                               X
Air Force MQ-9 Unmanned Aircraft System Reaper                                                                                                                         X                                                                                                                                                                                                 X
DoD Health Management System and Integrated Electronic
                                                                                                                                                                       X
Health Records
Global Positioning System - Based Positioning, Navigation,
                                                                X                                                           X
and Timing Service
Joint Tactical Radio System Handheld, Manpack, and Small
                                                                                                                                                                       X                                                                                                 X                     X                                                                         X
Form Fit
Low-Rate Initial Production in Major Defense Acquisition
                                                                                                                                                                                                                                                                                                                                                                         X
Programs
Management of Operational Test Waivers for Department of
                                                                                                                                                                                                                                                                                                                                                                         X
the Navy Systems
OH-58F Kiowa Warrior Cockpit and Sensor Upgrade Program         X                                                           X                                                                                                                                                                                                                                            X
Ohio-Class Replacement Submarine and Implementation of the
                                                                                                                                                                       X                                                                                                                                                                                                 X
Better Buying Power Initiative
Special Operations Forces–Unique Equipment Validation
                                                                                         X                                  X                                          X
Process




                                                                                                                                                                                                                                        25
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                                                                                                                                                                                  GAO High-Risk Areas DoD Specific
                                                                                          DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                              Risks




                                                                                                                                                          in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                                Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                       Technologies Critical to U.S. National
                                                                                                                                                                                                  Approach to Business Transformation
                                                                                                                                                          Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                        Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Sharing and Managing Terrorism-
                                                                                                                      Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Managing Federal Real Property
                                                                                                                                                                                                                                        Business Systems Modernization
                                                                                                                       Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                         Weapons Systems Acquisition
                                                                                                                         Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                      Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   the Nation's Cyber Critical
                                                                                         Prevent and Deter Conflict




                                                                                                                                                                 of the Defense Enterprise
                                                                Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                                Support Infrastructure
                                                                                                                                                                                                                                                                                               Financial Management
                                                                                                                                                                                                                                                                         Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                                Security Interests
                                                                                                                               Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Infrastructures
                                                                                                                                Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                              Homeland
      Inspector General
      FY 2014 Planned Projects
                   Contract Management
8(a) Alaska Native Corporation Contracting: Contracting
                                                                                                                                                                                                                                                                         X                     X
Advantages and Potential Pass-Through(s)
Afghan Air Force Light Air Support Aircraft                                                                                 X
Contracting Support in Afghanistan                              A                                                           X
Contractor Past Performance Information                                                                                                                                                                                                                                  X
Congressionally Mandated Section 942 Review                                                                                                                            X
Defense Logistics Agency Controls over the Assignment and
                                                                                                                                                                       X
Management of Commercial and Government Entity Codes
Defense Logistics Agency Product Quality Deficiency Report
                                                                                                                                                                       X
Processing
Enhanced Army Global Logistics Enterprise Contract Program      X                                                                                                                                                                                                        X
Joint Multinational Training Readiness Center Task Orders       X
Multiple Award Contracts for Services                                                                                                                                                                                                                                    X
Naval Support Activity Bahrain Military Construction Contract
                                                                                         X                                  X
Administration
Naval Support Activity Bahrain Military Construction Planning                            X                                  X
             Parts Utilization and Procurement
Accountability of Afghanistan National Security Forces Mi-17,
                                                                                                                            X
Mi-35, AN-26, and AN-32 Aircraft Spare Parts
DLAs Controls Over Contractor Procurements Through DoD
                                                                                                                            X
Electronic Mall
Defense Logistics Agency Sole-Source Spare Parts
                                                                                                                            X
Procurements




                                                                                                                                                                                                                                        26
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                                                                                                                                                                                 GAO High-Risk Areas DoD Specific
                                                                                         DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                             Risks




                                                                                                                                                         in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                               Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                      Technologies Critical to U.S. National
                                                                                                                                                                                                 Approach to Business Transformation
                                                                                                                                                         Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                       Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                                Sharing and Managing Terrorism-
                                                                                                                     Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                                Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Managing Federal Real Property
                                                                                                                                                                                                                                       Business Systems Modernization
                                                                                                                      Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                        Weapons Systems Acquisition
                                                                                                                        Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                     Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  the Nation's Cyber Critical
                                                                                        Prevent and Deter Conflict




                                                                                                                                                                of the Defense Enterprise
                                                               Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                               Support Infrastructure
                                                                                                                                                                                                                                                                                              Financial Management
                                                                                                                                                                                                                                                                        Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                               Security Interests
                                                                                                                              Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Infrastructures
                                                                                                                               Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                             Homeland
      Inspector General
      FY 2014 Planned Projects
Effective Utilization and Accountability of Government-
                                                                                                                           X                                                                                                                                            X                                            X                         X
Owned Inventory
Excess Inventory Managed by the Defense Logistics Agency
                                                                                                                                                                      X
Land and Maritime Supply Chain
Naval Sea Systems Command Spare Parts Requirements at the
Norfolk Naval Shipyard Depot for the Arleigh Burke–Class       X                                                                                                      X
Destroyer
                   Financial Management
Agreed-Upon Procedures for Reviewing the FY 2014 Civilian
                                                                                                                                                                      X
Payroll Withholding Data and Enrollment Information
Attestation Review of the DoD Counterdrug Program FY 2013
                                                                                                                                                                                                                                                                                              X
Obligations
Attestation Review of the DoD Counterdrug Program FY 2013
                                                                                                                                                                                                                                                                                              X
Performance Summary Report
DoD FY 2013 Conference Spending                                                                                                                                       X
Department of the Navy's Compliance with Federal Real
                                                                                                                                                                      X
Property Asset Management Requirements
Examination of DoD Execution of North Atlantic Treaty
Organization Contributing Countries Donations to Afghanistan   X                                                           X
National Army Trust Fund for FY 2013
Off-Installation Cooperative Sikes Act Agreements                                                                          X
Potential Costs Saving and Efficiencies Within the DoD
                                                                                                                                                                      X                                                                                                                       X
Permanent Change of Station Program
U.S Military Academy, West Point, Controls over Gift
                                                                                                                                                                      X
Processes and Gift and Nonappropriated Fund Contracting




                                                                                                                                                                                                                                       27
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                                                                                                                                                                                  GAO High-Risk Areas DoD Specific
                                                                                          DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                              Risks




                                                                                                                                                          in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                                Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                       Technologies Critical to U.S. National
                                                                                                                                                                                                  Approach to Business Transformation
                                                                                                                                                          Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                        Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Sharing and Managing Terrorism-
                                                                                                                      Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Managing Federal Real Property
                                                                                                                                                                                                                                        Business Systems Modernization
                                                                                                                       Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                         Weapons Systems Acquisition
                                                                                                                         Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                      Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   the Nation's Cyber Critical
                                                                                         Prevent and Deter Conflict




                                                                                                                                                                 of the Defense Enterprise
                                                                Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                                Support Infrastructure
                                                                                                                                                                                                                                                                                               Financial Management
                                                                                                                                                                                                                                                                         Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                                Security Interests
                                                                                                                               Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Infrastructures
                                                                                                                                Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                              Homeland
      Inspector General
      FY 2014 Planned Projects
                        Audit Readiness
Army’s Use of the Army Fund Balance With Treasury Tool in
                                                                                                                                                                       X
the Reconciliation of the Fund Balance With Treasury
Attestation of the Department of the Navy's Fund Balance with
                                                                                                                                                                       X
Treasury Management Assertion on Audit Readiness
Defense Finance and Accounting Service Reconciliation and
Elimination of the Other Defense Organizations
                                                                                                                                                                                                                                                                                               X
Intragovernmental Transactions Reported on the DoD FY 2013
Agency-Wide Basic Financial Statements
Efficiency of the Department of Defense Enterprise Resource
                                                                                                                                                                       X                          X                                     X                                                      X
Planning Systems
Examination of Army's Assertion to Existence, Completeness,
                                                                                                                                                                       X
and Rights of Operating Materials and Supplies
Examination of Army Management's Assertion of Existence,
                                                                                                                                                                       X
Completeness, and Rights for General Equipment
Examination of Army Management's Assertion for Existence
                                                                                                                                                                       X
and Completeness and Rights of Military Equipment Asset
FY 2014 Certifications for Defense Business Systems
                                                                                                                                                                       X
Investments
Global Combat Support System-Army Implementation of the
DoD Business Enterprise Architecture Budget-to-Report                                                                                                                  X
Business Process
Logistics Modernization Program System Stocking,
Distributing, and Accountability of Government Furnished                                                                                                               X
Materials
Post Audit Review of the Defense Finance and Accounting
                                                                                                                                                                       X
Service Civilian Pay Process



                                                                                                                                                                                                                                        28
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                                                                                                                                                                                  GAO High-Risk Areas DoD Specific
                                                                                          DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                              Risks




                                                                                                                                                          in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                                Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                       Technologies Critical to U.S. National
                                                                                                                                                                                                  Approach to Business Transformation
                                                                                                                                                          Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                        Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Sharing and Managing Terrorism-
                                                                                                                      Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                                 Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Managing Federal Real Property
                                                                                                                                                                                                                                        Business Systems Modernization
                                                                                                                       Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                         Weapons Systems Acquisition
                                                                                                                         Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                      Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   the Nation's Cyber Critical
                                                                                         Prevent and Deter Conflict




                                                                                                                                                                 of the Defense Enterprise
                                                                Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                                Support Infrastructure
                                                                                                                                                                                                                                                                                               Financial Management
                                                                                                                                                                                                                                                                         Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                                Security Interests
                                                                                                                               Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Infrastructures
                                                                                                                                Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                              Homeland
      Inspector General
      FY 2014 Planned Projects
Use of Enterprise Resource Planning System to Comply with
                                                                                                                                                                                                                                                                                               X
Department Debt Management Requirements
                     Financial Statements
Air Force General Fund Basic Financial Statements as of and
                                                                                                                                                                       X
for the Years Ending September 30, 2014 and 2013
Air Force Working Capital Fund Basic Financial Statements as
                                                                                                                                                                       X
of and for the Years Ending September 30, 2014 and 2013
DoD Agency-wide Basic Financial Statements for the Fiscal
                                                                                                                                                                       X                                                                                                                       X
Years Ending September 30, 2014 and 2013
DoD Medicare-Eligible Retiree Health Care Fund FY 2014
                                                                                                                                                                                                                                                                                               X
Financial Statements
DoD Special Purpose Financial Statements for the Fiscal Years
                                                                                                                                                                       X                                                                                                                       X
Ending September 30, 2014 and 2013
Department of the Army General Fund Basic Financial
Statements for the Fiscal Years Ending September 30, 2014,                                                                                                             X
and September 30, 2013
Department of the Army Working Capital Fund Basic Financial
Statements for the Fiscal Years Ending September 30, 2014,                                                                                                             X
and September 30, 2013
FY 2014 Department of the Navy General Fund Financial
                                                                                                                                                                                                                                                                                               X
Statements
FY 2014 Department of the Navy Working Capital Fund
                                                                                                                                                                                                                                                                                               X
Financial Statements
Fiscal Year 2014 U.S. Army Corps of Engineers-Civil Works
                                                                                                                                                                       X
Financial Statements
Oversight of the FY 2014 Military Retirement Fund Financial
                                                                                                                                                                       X
Statements Audit


                                                                                                                                                                                                                                        29
Deputy Inspector General for Auditing FY 2014 Audit Plan

                                                                                                                                                                                               GAO High-Risk Areas DoD Specific
                                                                                       DoD Strategic Goals                                                                                                                                                                                                                                                                                            GAO High Risk Areas - Government-wide Risks
                                                                                                                                                                                                           Risks




                                                                                                                                                       in the Business and Support Functions




                                                                                                                                                                                                                                                                                                                                                                                                                                             Establishing Effective Mechanisms for




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Information-Sharing Mechanisms and
                                                                                                                                                                                                                                                                                                                                                                                                    Technologies Critical to U.S. National
                                                                                                                                                                                               Approach to Business Transformation
                                                                                                                                                       Reform and Find Further Efficiencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Protecting the Federal Government's
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Improving and Modernizing Federal
                                                                                                                                                                                                                                                                                                                                                                                                     Ensuring the Effective Protection of




                                                                                                                                                                                                                                                                                                                                                                                                                                              Sharing and Managing Terrorism-
                                                                                                                   Prepare to Defeat Adversaries and




                                                                                                                                                                                                                                                                                                                                                                                                                                              Related Information to Protect the




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Managing Federal Real Property
                                                                                                                                                                                                                                     Business Systems Modernization
                                                                                                                    Preserve and Enhance the All-




                                                                                                                                                                                                                                                                                                                                                                      Weapons Systems Acquisition
                                                                                                                      Succeed in a Wide Range of




                                                                                                                                                                                                                                                                                                                   Supply Chain Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                the Nation's Cyber Critical
                                                                                      Prevent and Deter Conflict




                                                                                                                                                              of the Defense Enterprise
                                                             Prevail in Today's War




                                                                                                                                                                                                                                                                                                                                             Support Infrastructure
                                                                                                                                                                                                                                                                                            Financial Management
                                                                                                                                                                                                                                                                      Contract Management




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Disability Programs
                                                                                                                                                                                                                                                                                                                                                                                                             Security Interests
                                                                                                                            Volunteer Force




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Infrastructures
                                                                                                                             Contingencies




                                                                                                                                                                                                                                                                                                                                                                                                                                                           Homeland
      Inspector General
      FY 2014 Planned Projects
TRICARE Management Activity Contract Resource
                                                                                                                                                                                                                                                                                            X
Management FY 2014 Financial Statements
United States Marine Corps General Fund Current Year
                                                                                                                                                                                                                                                                                            X
Schedule of Transactions for FY 2014
                          Payments
Billings by Skilled Nursing Facilities                                                                                                                              X                                                                                                                       X
DoD Aviation Into-plane Reimbursement Card Program                                                                                                                  X                                                                                                                       X
DoD FY 2013 Compliance With the Improper Payments
                                                                                                                                                                    X
Elimination and Recovery Act Requirements
Government Travel Charge Card Transactions at Questionable
                                                                                                                                                                                                                                                                      X                     X
Merchants
Improper Payments to Excluded Medical Providers                                                                                                                                                                                                                                             X
Joint POW-MIA Accounting Command Travel                                                                                                    X
                       Cyber Security
Combatant Command Joint Cyber Centers                                                 X                                                                                                                                                                                                                                                                                                                          X
DoD Progress to Recruit, Train, and Retain its Cyberspace
                                                                                                                                                                    X                          X                                     X                                                                                                                                                                                                                     X
Operations Workforce
DoD’s Transition to Internet Protocol Version 6              X                                                           X                                                                                                                                                                                                                   X                                                                                                             X                                                                                                            X
Requirements and Strategy for DoD Migration to Cloud
                                                                                                                         X                                          X                          X                                                                                                                                                                                                                                                                                                                                                                        X
Computing Technology
              Joint Warfighting and Readiness
Afghanistan Base Closure and Facilities Management           X                                                                                                                                                                                                        X                                                                      X
Defense Fuel Supply Points Utilization and Strategic
                                                             X                                                                                                      X                                                                                                 X                                            X                                                                                                                                                                                                     X
Positioning




                                                                                                                                                                                                                                     30
     Property
     DoD Energy Projects

     Property Losses in Afghanistan
     DoD Materiel Returns Program

     Retrograde of Force Provider Equipment
                                   FY 2014 Planned Projects
     Defense Logistics Agency Long-Term Storage of Excess
                                     Inspector General


     X
                                             X



                                                                   Prevail in Today's War

                                                                 Prevent and Deter Conflict
                                                             Prepare to Defeat Adversaries and
                      X
                                             X
                                                                                                                                                           Deputy Inspector General for Auditing FY 2014 Audit Plan




                                                                Succeed in a Wide Range of
                                                                       Contingencies
                                                              Preserve and Enhance the All-
                                                                      Volunteer Force
                                                                                                             DoD Strategic Goals




                                                            Reform and Find Further Efficiencies
     X
     X
     X
     X




                                                            in the Business and Support Functions
                                                                   of the Defense Enterprise
                      X
                      X




                                                            Approach to Business Transformation




31
                                                              Business Systems Modernization
             X




                                                                   Contract Management
                      X
                                             X




                                                                   Financial Management
                                                                                                                 Risks




     X
     X
     X
                                             X




                                                                 Supply Chain Management
                                X




                                                                   Support Infrastructure

                                                                Weapons Systems Acquisition
                                                                                                     GAO High-Risk Areas DoD Specific




                                                             Ensuring the Effective Protection of
             X




                                                            Technologies Critical to U.S. National
                                                                     Security Interests

                                                            Establishing Effective Mechanisms for
                                                             Sharing and Managing Terrorism-
                                                             Related Information to Protect the
                                                                          Homeland

                                                            Improving and Modernizing Federal
                                                                   Disability Programs
                                X




                                                              Managing Federal Real Property

                                                             Protecting the Federal Government's
                                                            Information-Sharing Mechanisms and
                                                                                                             GAO High Risk Areas - Government-wide Risks




                                                                  the Nation's Cyber Critical
                                                                        Infrastructures
Deputy Inspector General for Auditing FY 2014 Audit Plan




                                                       [THIS PAGE INTENTIONALLY LEFT BLANK]




                                                                        32
This plan and the Comprehensive Oversight Plan for
Southwest Asia are available on our website:
http://www.dodig.mil/audit

or by contacting:
   Office of the Deputy Inspector General for
   Auditing
   Attn: Corporate Planning/02J25-01
   4800 Mark Center Drive
   Alexandria, VA 22350-1500
   (703) 604-9142 (DSN 664-9142)
  DEPARTMENT OF DEFENSE
OFFICE OF INSPECTOR GENERAL




  OFFICE OF THE DEPUTY INSPECTOR GENERAL FOR AUDITING
                     WWW.DODIG.MIL
